W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

21-216

Roger Brown

Citizens Property Insurance Corporation
(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Citizens Property Insurance Corporation
Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:
Date:

August 24, 2021

(Type or print) Name

Maureen G. Pearcy
Mr.

Firm

Ms.

Mrs.

Paul R. Pearcy, P.A.

Address

7700 N. Kendall Drive, Suite 412

City & State

Miami, Florida

Phone

Miss

305-663-8850

Zip
Email

33156

maureen@pearcylawyer.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Roger Brown, pro se appellant, P.O. Box 566, Dunedin, FL 34697, rb127.legal@gmail.com

